     Primer
        on
Postal Challenges




      April 3, 2013
Table of Contents
Table of Contents
Introduction ..................................................................................................................... 1
Levers of Action .............................................................................................................. 3
   Optimizing Networks .................................................................................................... 4
   Aligning Service to Market Demand ............................................................................. 5
   Labor Flexibility ............................................................................................................ 6
   Prefunding Liabilities .................................................................................................... 7
   Postal Service Managed Health Plan........................................................................... 8
   Revenue Challenges .................................................................................................... 9
   Digital Services .......................................................................................................... 10
   Nonpostal Products and Services .............................................................................. 11
   Modernize and Grow the Parcel Business ................................................................. 12
Mission Clarity ............................................................................................................... 13
   Government Agency or Regulated Business ............................................................. 14
   Binding the Nation in the 21st Century....................................................................... 15
   Defining the Universal Service Obligation .................................................................. 16
   Restructure the Postal Service’s Governance Model ................................................. 17
   Customer-Centric Approach....................................................................................... 18
Conclusion .................................................................................................................... 19
Appendix A: Glossary ................................................................................................... 20
Appendix B: Postal Service by the Numbers ................................................................ 22
Appendix C: Key References ....................................................................................... 23
Introduction

The Postal Service is in critical condition. It faces a dire cash liquidity crisis that
threatens its solvency. In fact, the Postal Service has posted net losses in 14 of the last
16 quarters, incurred $41 billion in net losses over the last six fiscal years, and has
reached its maximum borrowing authority of $15 billion. It may run out of cash as soon
as October 2013. The Postal Service's financial condition is a result of the following
challenges:

•   Electronic diversion of mail, as individuals and businesses have become
    increasingly reliant on digital alternatives to hardcopy communication,
•   An economic downturn that accelerated mail volume decline, as individuals and
    businesses sought to reduce costs and seek cheaper alternatives,
•   Large retiree health benefit prefunding payments that put tremendous pressure on
    its financial and cash position, and
•   The inability of the Postal Service to adapt to the changing world, as a result of both
    internal (Postal Service decisions and culture) and external (legal restrictions,
    political pressure) forces.

The Postal Service's long and storied history, complexity, universal service obligation,
and demanding financial obligations require immediate action to restore its financial
health. Additionally, immediate action is needed because the Postal Service has a
significant impact on American citizens and the country's economic well-being.
•   Many people rely on the Postal Service to send and receive important
    communications and business transactions, as well as packages, including
    prescription drugs and other necessities.
•   Despite the rise in electronic communications, a large population does not have
    access to or interest in digital communications, particularly in rural and low income
    areas, and therefore rely more heavily on the Postal Service.
•   The Postal Service is the cornerstone of a mailing industry that generates
    $1.3 trillion in revenue annually and supports about 8.4 million jobs, which accounts
    for 6 percent of all jobs in the country.

As an independent entity of the executive branch, the Postal Service has unique
characteristics:
•   It receives virtually no tax dollars to fund its operations; the cost of its operations are
    funded by revenue that it generates through its products and services.
•   It faces legal and regulatory constraints on the types of products and services it can
    offer and how it prices those offerings.



Primer on Postal Challenges                                                                   1
•   It has a complex governance structure.
•   It has the benefit of both letter and mailbox monopolies and the authority to borrow
    money from the U.S. Treasury.
•   It faces a legal obligation to provide universal service, which includes providing
    affordable delivery services to "every door, every day," even where it does not make
    financial sense to do so.
•   It has a mandate to "bind the nation together" without further clarity on whether that
    requirement is limited to physical delivery, or expands to digital.

The Postal Service Office of Inspector General has compiled the following Primer on
Postal Challenges to give readers an overview of the Postal Service, the major issues it
faces, and the options being discussed to help the Postal Service recover, both in the
short- and long-terms.

First, the document identifies Levers of Action the Postal Service could take that could
cut costs and generate additional revenue. Next, the document outlines the struggles
the Postal Service faces as a result of its lack of Mission Clarity. Currently, the Postal
Service's stated mission is to "bind the nation together." The traditional interpretation of
that mission has limited the Postal Service to physical delivery of paper-based mail and
packages. The Postal Service, however, must adapt its mission to meet the changing
needs of its customers. To do so, it needs to understand its role in an environment
increasingly reliant on digital means of communication. Unless and until the Postal
Service has Mission Clarity, it cannot fulfill its mission to meet modern needs.

This document is not intended to advocate for adoption of one option over another, but
rather to give the reader an understanding of the Postal Service's current financial and
operational challenges, as well as possible future directions.




Primer on Postal Challenges                                                                  2
                       Levers of Action




Primer on Postal Challenges               3
Optimizing Networks
                              Status
        Issue                 •   The Postal Service has reduced some of its networks,
                                  but there is still room to make them more efficient.
 There is opportunity             o Retail: In 2011, the Postal Service announced plans
 to reduce costs                    to review 3,600 Post Offices for closure, but criticism
 through aligning the               caused it to reduce hours instead. It is unclear
 current networks                   whether the limited hours will meet consumer needs.
 with the current
 lower demand for                 o Mail Processing: In May 2012, the Postal Service
 hard copy mail.                    stated an intention to consolidate 140 locations
                                    through 2013 and 89 more starting in February 2014.
 While the concept of             o Delivery: The Postal Service has been redesigning
 optimization is                    delivery routes and consolidating facilities.
 widely supported,
 there is often               •   Efficiently meeting demand may mean adding service in
 resistance when it               some areas while cutting in others, ultimately contributing
 comes to closing                 to the health of the Postal Service.
 specific facilities,         •   If the Postal Service’s mission is expanded, it may also
 particularly closings            need to establish or enhance networks to provide new
 that would affect the            products and services.
 local economy.
                              Options Under Discussion
 Communities tend to          •   Encourage the Postal Service to right-size mail
 resist Post Office               processing facilities to match volume and throughput.
 closures as it is
                                  o Some argue any job reductions and the local and
 often the only face of
                                    national economic impact should be considered.
 the government in
 that community.                  o Others argue that the focus should be on the benefit
                                    the public will reap from a stable Postal Service with
                                    lower prices.
 Closures of mail
 processing facilities        •   Allow the Postal Service to leverage its excess capacity
 also face resistance             to offer new products and services, such as micro-
 as they are a source             warehousing and logistics.
 of employment.               •   Encourage the Postal Service to optimize the retail
                                  network to match customer demand, but focus on both
 Unions are resistant             cost savings and improved service by closing some
 to changes in                    facilities, but expanding service hours at others. Some
 delivery office                  may oppose providing unequal service in different areas.
 consolidation and            •   Keep the retail network as is, but allow the Postal
 delivery route                   Service to offer nonpostal products, if needed, to turn
 optimization.                    Post Offices from cost centers into profit centers and let
                                  them become resources for local communities.


Primer on Postal Challenges                                                                    4
Aligning Service to Market Demand
                              Status
        Issue                 •   The Postal Service estimates the cost savings of
                                  eliminating Saturday delivery of all mail except parcels
                                  will be $2 billion once the plan is fully implemented, but it
 The current levels of            has not yet provided its cost methodology.
 service may no
 longer be needed as          •   The Postal Service requested an advisory opinion on a
 most consumers rely              prior proposal to eliminate Saturday delivery, where the
 less on hard copy                PRC raised concerns that the Postal Service is
 mail.                            overstating its cost savings and understating expected
                                  revenue loss.
 In February 2013, the        •   Several members of Congress, mailers, and unions have
 Postal Service                   expressed concern with the Postal Service's plan and
 announced plans to               challenged its legal authority to reduce delivery to five
 eliminate Saturday               days per week.
 delivery of letter and       •   Since 1987, spending bills have required the Postal
 flat mail, but plans to          Service to deliver mail six days per week. However,
 continue to deliver              recently, the Postal Service asserted that it had the legal
 parcels six days per             authority to eliminate Saturday delivery.
 week, effective
 August 5, 2013.              Options Under Discussion
                              •   Explicitly prohibit the Postal Service from eliminating
 There may be                     Saturday delivery. This may meet some customers'
 significant cost                 delivery wishes, but does not provide the Postal Service
 savings in moving                with any financial relief.
 from door-to-door to
 curbside and                 •   Allow the Postal Service to eliminate Saturday delivery.
 clusterbox delivery.             The Postal Service may not fully realize the estimated
                                  cost savings and could risk additional revenue if senders
                                  mail less as a result.
 The Postal Service is
 also pursuing a              •   Continue requiring six-day delivery but provide other
 reduction in service             funding mechanisms (such as subsidies or a universal
 standards, meaning               service fund). While this could address reduced delivery
 delivery time for                frequency concerns, there may be a lack of support for
 certain types of mail            other funding mechanisms.
 would take longer            •   Give the Postal Service the legal authority to move
 than in the past.                existing residences to curbside or clusterbox delivery.
                                  This could lead to significant cost savings, but will most
                                  likely not have public support.




Primer on Postal Challenges                                                                    5
Labor Flexibility
                              Status
        Issue                 •   The major unions that represent postal employees are
                                  o American Postal Workers Union, AFL-CIO (APWU),
 About 80% of the                   representing clerks, mechanics, vehicle drivers,
 Postal Service's                   custodians and some administrative positions.
 costs are labor-
 related.                         o National Association of Letter Carriers, AFL-CIO
                                    (NALC), representing employees that deliver in
 The Postal                         metropolitan areas.
 Reorganization Act               o National Rural Letter Carriers' Association (NRLCA),
 authorizes collective              representing employees that deliver primarily in rural
 bargaining on wages                and suburban areas.
 and working
                                  o National Postal Mail Handlers Union, AFL-CIO
 conditions.
                                    (NPMHU), representing employees that work in mail
                                    processing plants and Post Offices.
 Current law prohibits
 postal employees             •   Career employees participate in federal pension and
 from striking and                benefits programs, including health and life insurance.
 requires the Postal
                              •   The Postal Service pays a greater share of health care
 Service to maintain
                                  premiums than federal agencies because of past
 compensation and
                                  collective bargaining agreements, but current contracts
 benefits comparable
                                  are gradually reducing the share.
 to the private sector.
                              •   The contracts include provisions that limit labor
 Impasses in                      flexibilities, such as limitations on managers' ability to
 collective bargaining            assign work to employees outside of their crafts.
 negotiations must be
                              •   If collective bargaining reaches binding arbitration, there
 resolved through                 is no statutory requirement for the arbitrator to consider
 binding interest                 the Postal Service's financial condition.
 arbitration.
                              Options Under Discussion
 Most employees are
 represented by one           •   Require the arbitrator to consider the Postal Service's
 of four unions.                  financial condition on collective bargaining agreements.
                              •   End binding arbitration or require arbitrators to select
 All four of the major            between only two final offers to incentivize each party to
 union contracts                  present a reasonable, rather than extreme, proposal.
 include "no lay-off"
 clauses that prevent         •   Impose changes to collective bargaining agreements,
 the Postal Service               such as removing no lay-off clauses, making work rules
 from substantially               less stringent, and allowing cross-craft training.
 reducing its                 •   Recently proposed postal legislation would allow lay-offs,
 workforce quickly.               despite the prohibition in existing union contracts.


Primer on Postal Challenges                                                                     6
Prefunding Liabilities
                              Status
        Issue                 •   The Postal Service has been unable to fully make its
                                  retiree health prefunding payments without borrowing
 The Postal                       and has said it will not have the cash to make the
 Accountability and               payment in 2013.
 Enhancement Act of
                              •   Prefunding has required all of the Postal Service’s
 2006 (PAEA)
                                  working capital and inflated product costs at a time when
 requires the Postal
                                  the value of the product is decreasing.
 Service pay between
 $5.4 and $5.8 billion        •   The Postal Service has funded nearly all (95%) of its
 annually until 2016              $300 billion in pension liabilities.
 to prefund its               •   The Postal Service has funded 49% of its $94 billion
 liabilities for the              health liability for current retirees.
 health benefits of
 future retirees.             •   OPM has estimated that the Postal Service has
                                  overfunded its Federal Employees Retirement System
 Annual payments to               (FERS) liabilities by nearly $3 billion but has been unable
 the PSRHBF were                  to refund the overpayments to the Postal Service.
 developed based on           •   The Postal Service has set aside $330 billion — or 83%
 budget scoring                   of its pension and retiree health liabilities of $394 billion.
 considerations and
 do not vary based on         Options Under Discussion
 actuarial changes.
                              •   Continue the prefunding requirement, but replace current
                                  fixed payments with an actuarially-based plan (adjusting
 The Postal Service
                                  amounts to reflect changing liabilities); allow payments for
 must also pay the
                                  current retiree premiums to come from the Postal Service
 health premiums of
                                  Retiree Health Benefits Fund (PSRHBF).
 current retirees
 ($2.6 billion in 2012).      •   Allow a reprieve from paying into the PSRHBF by sealing
                                  the fund and allowing it to grow ($1.6 billion per year), while
 These prefunding                 maintaining the requirement to pay current premiums.
 requirements have            •   Eliminate the retiree health prefunding requirement, and
 challenged the                   allow the Postal Service to return to pay-as-you-go only,
 Postal Service by                paying annually for current retiree premiums. Allow the
 (1) depleting capital            Postal Service to use PSRHBF funds to make payments.
 that could have used
 to make investments          •   Allow the Postal Service to set aside its $330 billion in its
 in infrastructure and            pension and retiree health funds, plus its $85 billion in real
 (2) inflating the cost           estate ($415 billion in total) to satisfy its liabilities.
 of postal products at        •   Allow the Postal Service to annually apply funds from
 a time of declining              accounts it has overfunded, such as FERS, toward the
 demand.                          PSRHBF liabilities with OPM calculating the overpayments
                                  using Postal Service-specific assumptions.


Primer on Postal Challenges                                                                        7
Postal Service Managed Health Plan
                              Status
        Issue                 •   No law currently requires the Postal Service to stay in
                                  FEHB, but a 1970 provision requires collective
 The Postal Service               bargaining over benefits and does not allow fringe
 participates in the              benefits to be less than they were when the Postal
 Federal Employees                Reorganization Act took effect.
 Health Benefit
 (FEHB) program, but          •   OPM is concerned that the Postal Service leaving FEHB
 pays higher                      will have a negative impact on the program.
 premiums for                 •   The Postal Service claimed it would save $7 billion a
 employees than                   year total under its own program from changes including:
 other federal                    o Enrolling all retirees in Medicare A and B (currently
 agencies. It is                     some eligible employees choose not to participate),
 working to reduce
 these.                           o Integrating coverage from Medicare D (FEHB does
                                     not receive employer subsidy from Medicare D),
 In 2011 the Postal               o Creating more coverage tiers (i.e. adding “self and
 Service proposed                    spouse” and “self and children”),
 removing its                     o Implementing a deductible or “carve out” for future
 employees from the                  retirees, and
 FEHB program and
                                  o Using best practices for purchasing integrated care.
 creating its own
 health system.               •   The OIG reviewed the Postal Service’s plan in 2012 and
                                  found the savings estimate was reasonable, but it
 The Postal Service is            needed to communicate the plan more clearly.
 not eligible to              •   GAO is also currently reviewing the Postal Service’s
 receive the employer             proposed health plan.
 subsidy for
 Medicare D because           Options Under Discussion
 it participates in
 FEHB.                        •   Allow the Postal Service to move employees and retirees
                                  from the FEHB to a less expensive Postal Service health
 The Postal Service               plan that may already be fully funded. Under this option,
 claims that moving               consideration of the impact on federal employees
 to its own health                remaining under the FEHB program would be needed.
 care program could           •   Keep the Postal Service under the FEHB program, but
 save up to $7 billion            reduce costs by:
 annually and reduce
                                  o Reducing the Postal Service share of premiums so
 its unfunded liability
                                    that they are equal to what other agencies pay,
 for retiree health to
 $1.4 billion.                    o Requiring postal retirees to sign up for Medicare, and
                                  o Allowing the Postal Service to receive the subsidy for
                                    Medicare D ($250 million per year).


Primer on Postal Challenges                                                                 8
Revenue Challenges
                              Status
        Issue                 •   The Postal Service's mail volume and revenue have
 The Postal                       significantly declined since volume’s peak in 2006.
 Accountability and
 Enhancement Act of           •   The price cap has prevented the Postal Service from
 2006 (PAEA)                      raising prices enough to ensure that some products
 establishes a cap on             cover their costs. The PRC found that 10 “underwater”
 the rate at which the            products contributed to $1.6 billion in losses.
 Postal Service can           •   In 2010, the Postal Service filed a request with the PRC
 raise prices on                  to raise rates above inflation under the "extraordinary or
 market dominant                  exceptional circumstances" exception, often called an
 products each year.              "exigent rate case."
 The price increase
 cap is limited to the        •   Under the exigent rate case, the Postal Service cited
 annual inflation rate            electronic diversion and the struggling economy as the
 as measured by                   circumstances that warranted an exigent rate increase.
 changes in the               •   The PRC rejected the Postal Service’s exigent rate
 Consumer Price                   request. On appeal, the D.C. Circuit concluded that
 Index.                           exigent circumstances were met, but the Postal Service
                                  had not made the case for the price increase. The court
                                  allowed the Postal Service to refile, but it chose not to.
 The law includes an
 exception to this cap        •   The next price cap reconsideration deadline is 2016.
 under "extraordinary
 or exceptional               Options Under Discussion
 circumstances."              •   Direct the PRC to re-evaluate the price cap immediately,
                                  instead of waiting until 2016 as stated in the law.
 The law allows for           •   Modify the current inflation-based (CPI) price cap. This
 reconsideration of               could generate additional revenue for the Postal Service,
 the cap every                    but could cause rate shock in the mailing community.
 five years. In its 2011
 report on the                •   Repeal the CPI price cap established by PAEA. Mailers
 subject, the PRC did             would likely oppose such a change.
 not offer any                •   Change the exigency language so that an exigent rate
 recommendations                  case can be filed for more lenient reasons than the
 for change.                      current standard of “extraordinary or exceptional.”
 Postal costs,                •   Allow the Postal Service to have a one-time rate case
 particularly labor-              where it raises and realigns prices so that all products at
 related costs, do not            least cover their costs. This solution may not work in the
 necessarily follow               long-term if postal costs continue to increase faster than
 the same trend as                the rate of inflation. Mailers using underwater products
 the rate of inflation.           may fear large increases, but other mailers may embrace
                                  such a change.


Primer on Postal Challenges                                                                    9
Digital Services
                              Status
        Issue                 •   Electronic substitution of traditional mail is accelerating,
                                  as both consumers and businesses increasingly rely on
 The Internet and                 new technologies, resulting in considerable mail volume
 digital revolution               and revenue decline.
 have fundamentally           •   For citizens and commerce, problems remain with digital
 changed the worlds               services, including a lack of universal access and
 of communication                 inadequate levels of privacy, confidentiality, security, and
 and commerce.                    dependability.
                              •   Business leaders and academic experts have identified a
 Consumers are                    need for a trusted third party to fill gaps in universal
 increasingly shifting            service, energize market participants, and fulfill the
 from physical to                 potential of the digital revolution. The Postal Service
 digital and now                  could use its trusted reputation and existing infrastructure
 mobile services,                 to play a role.
 while exercising
 greater control over         •   The Postal Service recently began a pilot with the
 their options.                   Federal Cloud Credentialing Exchange (FCCX) program
                                  to provide a pipeline for secure information between
                                  agencies and approved ID providers for Government.
 The Postal Service’s
 mission to bind the          Options Under Discussion
 nation together has
                              •   Allow the Postal Service to pursue digital products and
 evolved over time;
                                  services that could complement its physical offerings and
 the use of digital
                                  conceptually fall under its mission to "bind the nation
 services to fulfill this
                                  together," such as providing:
 mission could be the
 next evolution.                     o A one-stop digital platform for e-government
                                       services and e-commerce support,
 Under current law,                  o A secure e-mail box,
 the Postal Service                  o A virtual PO box with an e-mail interface to direct
 may be limited in                     delivery,
 offering digital                    o Digital identity authentication,
 services, if such
 services are deemed                 o Digital currency redemption, Digital Collect On
 "nonpostal."                          Delivery (COD) and Digital Escrow,
                                     o Authentication (e.g., ID validation and in-person
                                       proofing), and
                                     o Hybrid and reverse hybrid mail services.
                              •   Maintain the Postal Service’s focus on providing paper-
                                  based services and allow the Postal Service to adjust
                                  accordingly.


Primer on Postal Challenges                                                                  10
Nonpostal Products and Services
                              Status
        Issue                 •   The Postal Service is currently limited to offering
                                  nonpostal products that were offered in 2006 and
 The Postal                       grandfathered in by the PRC.
 Accountability and           •   The purpose of the prohibition is to prevent the Postal
 Enhancement Act of               Service from competing with private industries.
 2006 (PAEA) limited
 the Postal Service to        •   Existing nonpostal services such as passport
 providing only postal            applications generated a net income of $141 million in
 products and                     2011.
 services, except             •   Offering additional nonpostal services at Post Offices
 those grandfathered              may allow them to earn revenues sufficient enough to
 by the PRC and                   keep them open; this would be especially beneficial in
 those provided to                communities where there are few other businesses and
 government                       the public relies more heavily on their local Post Office.
 agencies.
                              •   Private industries that provide the same or similar
                                  products and services may oppose the Postal Service's
 Offering nonpostal               offering of such nonpostal products and services, but
 products may allow               may wish to partner with postal outlets.
 the Postal Service to
 earn additional              •   International posts offer nonpostal products and services
 revenue and help                 such as government services. Some are partnering with
 cover the cost of                local communities to expand the services offered at Post
 universal service.               Offices.
                              Options Under Discussion
 Diversified products
 contributed 63% of           •   Allow the Postal Service to offer nonpostal products that
 the foreign posts’               enable Post Offices to earn sufficient revenue to justify
 total revenue in                 keeping them open.
 2008, up from 49% in         •   Allow the Postal Service to venture into nonpostal
 2003.                            services that meet society’s need for access to
                                  government services, such as licenses and permits.
 The Postal Service           •   The Senate passed legislation (S. 1789) in 2012 that
 already provides a               included a provision that would allow the Postal Service
 number of nonpostal              to offer nonpostal products and services as long as they
 services to other                leverage the Postal Service's existing network. The
 government                       House, however, did not consider the legislation.
 agencies, such as
 passport application
 services.




Primer on Postal Challenges                                                                 11
Modernize and Grow the Parcel Business
                              Status
        Issue                 •   In FY 2012, the Postal Service generated more than
                                  $11.5 billion in revenue from shipping and packages, an
                                  increase of nearly 9% over FY 2011.
 In addition to
 delivering traditional       •   The Postal Service partners with its competitors, such as
 letter mail, the Postal          FedEx and UPS, to provide last mile delivery of
 Service delivers                 packages through "co-opetition."
 parcels, along with
                              •   Partnerships with its competitors typically involve the
 its competitors in
                                  competitors providing air transportation and the Postal
 package delivery.
                                  Service delivering the parcel to the delivery point, such
                                  as a home or business.
 The growth in
                              •   The parcel delivery market is increasing with the rapid
 eCommerce has
                                  growth in eCommerce sales, which in the U.S. grew by
 increased the parcel
                                  more than 15 percent in 2012 according to the Census.
 delivery market.
                              •   One of the Postal Service's goals is to take advantage of
 One of the Postal                this growth opportunity and become the market leader for
 Service's goals is to            small package deliveries.
 take advantage of            •   The Postal Service's general strategy has been to focus
 the growth                       on specific markets that take advantage of its ubiquity,
 opportunity in the               network economies, and public mission and avoid head-
 parcel delivery                  to-head competition with the private sector.
 market and become
 a leader in small            •   Postal Service efforts to meet parcel delivery needs
 package delivery.                include a test of same day delivery and gopost, which is
                                  a service that provides automated, secured, self-service
                                  parcel lockers in central locations that allow customers to
 To accommodate a                 ship and receive prepaid packages anytime.
 shift of its volume —
 from letter mail to          Options Under Discussion
 package delivery —           •   Adapt the Postal Service's networks to meet parcel
 the Postal Service               delivery needs. For example, the Postal Service may
 may need to adapt                want to consider dynamic delivery by shifting routes to
 its mail processing,             reflect actual delivery needs each day, rather than using
 transportation, and              set delivery routes based on delivering letter mail to
 delivery networks.               every door daily.
                              •   Consider offering services that meet consumer-driven
                                  demand for more dynamic delivery options, where the
                                  customer gets to choose the time and place of delivery.
                                  Parcel lockers could help meet that demand.




Primer on Postal Challenges                                                                   12
                         Mission Clarity




Primer on Postal Challenges                13
Government Agency or Regulated Business
                              Status
        Issue                 •   While the Postal Service faces criticism that it does not
                                  operate enough like a business, it also faces criticism if it
                                  appears to be directly competing with private industry.
 The Postal Service is
 a self-sufficient            •   Private carriers currently do not face the same laws,
 independent                      obligations, and regulations as the Postal Service; the
 government entity                Federal Trade Commission found that the Postal
 that is expected to              Service's financial disadvantages outweigh its
 be “business-like.”              advantages as an independent government entity.
                              •   The Postal Service can no longer afford to absorb the
 The Postal Service's             cost of some of the benefits it provides to society (i.e.,
 status as a                      keeping all Post Offices open, maintaining facilities to
 governmental entity              provide employment).
 creates both
 advantages and               •   While some have advocated for privatization, there is
 disadvantages for it.            some concern that in the absence of a U.S. Postal
                                  Service, a private entity would not be willing to provide
 Advantages include               affordable service to all delivery points.
 the mailbox and              •   The Postal Service has successfully partnered with the
 letter monopolies                private industry through co-opetition. For example, the
 and the ability to               Postal Service provides last mile delivery for 30% of
 borrow from the U.S.             FedEx ground parcels.
 Treasury.
                              •   A 1989 law moved the Postal Service off-budget, but
                                  postal legislation is still often thwarted by federal budget
 Disadvantages
                                  scoring considerations, as its retiree benefits accounts
 include obligations
                                  and workers’ compensation account remain on budget.
 to provide universal
                                  Unified budget considerations also affect changes to law.
 service and laws and
 regulations that             Options Under Discussion
 control pricing, limit
 product and service          •   Maintain status quo as an independent government
 offerings, and                   entity, but allow more flexibility for revenue growth and/or
 require large                    cost cutting. For example, enable it to provide more
 payments for federal             government services.
 health and pension           •   Maintain status quo, but provide funds to cover the cost
 systems.                         of societal benefits (such as rural Post Offices) that are
                                  considered essential.
 Some have argued             •   Eliminate the monopoly, allow private mail delivery, and
 that society would               apply consistent regulations to all last mile carriers.
 be better served by
                              •   Reinstate off-budget status so Congress can pass postal
 regulated private
                                  legislation without budget scoring restrictions.
 mail carrier(s).



Primer on Postal Challenges                                                                    14
Binding the Nation in the 21st Century
                              Status
        Issue                 •   Digital communications and transactions have continued
                                  to increase with evolving technologies, presenting
 The law that                     possibilities as well as challenges for commerce and
 establishes the                  citizens.
 Postal Service tasks         •   It is unclear whether the Postal Service can legally offer
 it with the duty to              digital services, even if those services will help it meet its
 "bind the nation                 mission.
 together" but does
 not expressly state          •   The Postal Service has begun considering how its
 the mechanisms it                products and services can be modernized to meet
 should use to do so.             21st Century needs and services through the
                                  establishment of a Secure Digital Solutions group.

 Traditionally, the           •   The Postal Service has taken steps toward serving as a
 obligation to "bind              shared platform for e-Government services, through its
 the nation together"             recent involvement in the Federal Cloud Credential
 has been met                     Exchange (FCCX) initiative. Under this initiative, the
 through the physical             Postal Service:
 delivery of mail and             o Is expected to act as a pipeline for validating digital
 packages.                          identity credentials for citizen access to online
                                    government services; and
 Historically, the                o Will deliver credential information similar to how it
 Postal Service has                 currently delivers hardcopy mail.
 been able to adapt to
 or even drive                Options Under Discussion
 technological                •   Allow the Postal Service to also meet its universal
 changes such as                  service obligation through digital alternatives.
 when it moved from
 stage coaches to             •   Create a consistency between the Postal Service's
 railroads to air                 mandate to "bind the nation together" and providing it the
 planes; it will need to          flexibility and tools to do so.
 continue to adapt to         •   Reduce the Postal Service's role in "binding the nation
 meet its mission in              together" to reflect the diminishing reliance on hardcopy
 the 21st Century.                communications and consider an alternative
                                  infrastructure to support emerging communicaitons
 In a 1877 case, the              needs.
 Supreme Court                •   Tailor service to the needs of only those that continue to
 upheld the notion                rely on the Postal Service because they are left behind,
 that the Postal                  such as those in rural and low income areas.
 Service can evolve
 with technological
 change.


Primer on Postal Challenges                                                                   15
Defining the Universal Service Obligation
                              Status
        Issue                 •   The universal service obligation represents minimum
                                  requirements the Postal Service must provide to citizens
                                  and businesses. The Postal Service, however, could
 The lack of a legal              provide services beyond those outlined in the universal
 definition of the                service obligation in response to market demand.
 universal service
                              •   The universal service obligation is not expressly defined
 obligation allows                in law, although appropriations riders and other
 more flexibilities but
                                  legislative provisions attempt to create some standards.
 makes it difficult to
 determine whether            •   Currently, the Postal Service relies solely on physical
 the Postal Service is            delivery of paper-based mail and packages to meet its
 meeting its                      universal service obligation.
 obligations.                 •   The PRC identified seven key attributes in its 2008 report
                                  on the universal service obligation. Those attributes
 Some other                       include (1) geographic scope, (2) range of products,
 countries explicitly             (3) access, (4) delivery, (5) prices, (6) quality, and
 define the scope of              (7) protection of users' rights
 the universal service
                              •   The PRC found that the universal service obligation
 obligation by
                                  attributes are intended to promote "the evolution of
 creating specific
                                  postal service to meet an ever-changing mix of demands
 rules for the
                                  and opportunities."
 provision of service
 such as mandating            •   The PRC recognized that how the Postal Service meets
 that most citizens be            each of these universal service obligation attributes will
 within a certain                 evolve with changing technology over time.
 distance from a
 collection box.              Options Under Discussion
                              •   Keep the universal service obligation relatively undefined.
                                  This will allow flexibility, but will make it more difficult to
                                  determine if the Postal Service is meeting its obligations.
                              •   More specifically define the universal service obligation
                                  to ensure the public is receiving the defined level of
                                  service it needs in the 21st Century. Clarifications may
                                  include:
                                  o Specifying frequency and modes of delivery and
                                  o Allowing the Postal Service to use digital alternatives
                                    to meet the universal service obligation.
                              •   Expand the definition of the universal service obligation
                                  to require the Postal Service to enable digital access for
                                  digital refugees.


Primer on Postal Challenges                                                                   16
Restructure the Postal Service’s Governance Model
Status
•   The Postal Service has an intricate governance and oversight structure, as well as
    an elaborate set of stakeholders with varying interests that often hinders its ability to
    be agile — an ability it needs to adapt to changing needs.
•   Convergence of communication vehicles is making it difficult to define and regulate
    individual types of communication (i.e. phone, Internet, physical).
•   In other countries, the postal regulator oversees other postal licensees or other
    industries.
                    Figure 1 demonstrates the complex governance web.




U.S. Postal Service Office of Inspector General

Options Under Discussion
•   Seek regulatory convergence for overlapping technologies and sectors, such as
    postal, telecom, and digital services, to encourage innovation, multipurpose
    products, and bundled services.
•   Ensure that any new laws and regulations allow the Postal Service to make good
    financial and operational decisions nationwide instead of decisions driven by local
    considerations or the wishes of a particular interest group. For instance avoid “not in
    my backyard” mentality when the Postal Service tries to close a facility.
•   Centralize oversight responsibilities so the Postal Service is not required to try to
    meet varying, sometimes conflicting, directions.
•   Recently proposed postal legislation included a provision that would establish a
    financial Control Board if the Postal Service defaults.


Primer on Postal Challenges                                                                 17
Customer-Centric Approach
                              Status
        Issue                 •   Customers expect that the communications infrastructure
                                  will provide interactive, multi-channel access, message
 The Postal Service               integration, and data storage — while providing security,
 has a diverse set of             privacy, and confidentiality.
 customers that               •   Consumers are looking to remove barriers to commerce,
 includes senders,                especially internationally, where exchange rates,
 recipients, and third-           customs fees, and shipping charges limit price visibility.
 party mail
 consolidators,               •   The digital revolution has changed the way that
 whose needs and                  customers choose to communicate and transact
 priorities vary and              business, in turn raising customers' expectations,
 sometimes even                   creating alternatives, and giving customers power.
 conflict.                    •   Control is shifting from senders to receivers, giving them
                                  greater choice in what, when, and how they receive
 To address its                   communications and merchandise.
 financial crisis, the        •   Retailers — also customers of the Postal Service — are
 Postal Service has               adapting their businesses to allow access to their
 focused on cutting               products and services through a variety of channels.
 costs instead of
 meeting customers’           •   Communication has also shifted away from a broadcast
 needs, which often               medium and become more interactive.
 leads to service             •   The Postal Service has the potential to meet changing
 reductions.                      consumer demands, but will need to change how it
                                  currently does business.
 Customers have
 become increasingly          Options Under Discussion
 frustrated with the          •   Treat customers as a business would by striving to meet
 Postal Service and               or exceed the heightening expectations of all customers
 are finding electronic           — mailers, recipients, and third-party consolidators.
 alternatives ever
 more appealing.              •   Allow the Postal Service to offer digital postal products
                                  and services that address the evolving needs of
                                  customers and commerce.
 These changes drive
 customers away and           •   Expand the role of Post Offices to offer governmental
 create a death spiral            services and increase public access to these services.
 for the Postal               •   Encourage the Postal Service to find and utilize shared
 Service.                         retail space with other businesses to both cut costs and
                                  offer the public more convenience.
                              •   Increase focus on the parcel market, allowing customers
                                  to choose when and where parcels will be delivered.



Primer on Postal Challenges                                                                   18
Conclusion
The Postal Service is facing a dire — and urgent — financial crisis that threatens to
destroy its existence. The Postal Service finds itself in the midst of a digital, global, and
consumer revolution. Customers now demand better, faster, and cheaper service. If
those demands are not met, alternatives are available. Decision-makers must now
determine how the Postal Service's mission to "bind the nation together" will be applied
in a new era and arm the Postal Service with the ability to meet that mission, whether it
remains hardcopy or expands into digital.
If decision-makers determine the Postal Service should adapt to the changing market,
its survival will be dependent on:
•   Minimizing some of its universal service obligations and societal obligations that it
    cannot afford to sustain,
•   The ability to reduce its networks to meet shrinking demand,
•   Relief from health and pension prefunding demands that it cannot pay,
•   The flexibility to set prices that cover its costs, and
•   Flexibility to meet its mission in alternative ways, such as offering digital services.
If instead decision makers determine that the Postal Service should not adapt, the focus
will need to be on planning its orderly “shutdown” that allows affordable mail delivery to
continue as long as possible. The Postal Service will still need the ability to cut its costs
and increase prices, and may need revenue assistance (i.e., subsidies), as there will be
less and less mail to cover the cost of the postal network. A Postal Service shutdown,
however, will leave Americans without necessary services, as its survival is essential to
Americans' ability to connect and thrive domestically and internationally:
•   The Postal Service plays an important role in helping ensure the success of
    American commerce competing in an increasingly global market. The United States
    runs the risk of falling behind other nations if it does not modernize the national
    communications infrastructure.
•   Without an entity with a universal service obligation, there may be areas of the
    country that will not receive affordable parcel delivery service, isolating these areas
    from the growing parcel market.
The Postal Service is at a critical juncture. The Postal Service and its stakeholders
should not expect to be successful focusing on short-term solutions. Instead, its survival
is dependent on a new, relevant, clearly defined mission, effective implementation of
that mission, and the flexibility to act — even with incomplete information — but with the
keen awareness that inaction will be fatal.




Primer on Postal Challenges                                                                   19
Appendix A: Glossary
•   Federal Cloud Credential Exchange (FCCX): The federal initiative to support
    digital authentication for government services with which the Postal Service is
    involved.

•   Federal Employees Health Benefits (FEHB): The program through which federal
    employees can acquire health care from different private vendors for a government
    rate.

•   Federal Employees Retirement System (FERS): The current retirement system for
    all civilian federal employees. It includes an annuity, Social Security, and the Thrift
    Savings Plan. FERS replaced the Civil Service Retirement System (CSRS) in 1987.

•   Federal Trade Commission (FTC): Federal agency tasked with protection of
    consumers from business practices that are anticompetitive, deceptive, or unfair
    while at the same time encouraging legitimate business activity.

•   Post Office (PO): Retail outlets across the U.S. that are owned or operated by the
    Postal Service.

•   Postal Accountability and Enhancement Act of 2006 (PAEA): Postal reform law
    enacted in 2006 that expanded the powers of the Postal Regulatory Commission,
    placed a price cap on postal products, created a requirement for the Postal Service
    to prefund retiree health benefits, and barred the Postal Service from offering new
    nonpostal products and services.

•   Postal Regulatory Commission (PRC): Prior to 2006 it was known as the Postal
    Rate Commission and exercised power mainly over rates. Since the passing of the
    2006 postal reform law (PAEA) this body has had additional general oversight
    powers.

•   Postal Reorganization Act of 1970 (PRA): Postal reform law that eliminated the
    cabinet-level Post Office Department and created the U.S. Postal Service as an
    independent entity of the federal government, designed to be run more like a
    business.

•   Postal Service Office of Inspector General (OIG): An oversight agency of the
    Postal Service that provides unbiased law enforcement, auditing, and research.

•   Postal Service Retiree Health Benefits Fund (PSRHBF): A Treasury fund
    established under PAEA that is designed to cover the Postal Service’s liability for the
    FEHB healthcare costs of future retirees.


Primer on Postal Challenges                                                              20
•   United States Postal Service (USPS): An independent entity of the federal
    government tasked with providing universal and service by delivering mail to all U.S.
    states, territories and military bases.

•   Universal Service Obligation (USO): Not explicitly defined by law, but it is the
    expectation that the Postal Service will allow equal access to mail service through
    constant rates, regardless of where a letter originates or destinates, and a wide
    presence across the country as well as deliver to every address in the United States
    with a certain regular frequency (historically, six days a week).




Primer on Postal Challenges                                                            21
Appendix B: Postal Service by the
            Numbers
Fiscal Year 2012 Revenue and Expenses
• Revenue: $65.2 billion
• Expenses: $81.0 billion
• Net loss: $15.9 billion, including
       o Missed payments into Retiree Health Benefits Fund: $11.1 billion
       o Workers' compensation non-cash increase to liability: $2.4 billion

Assets/Liabilities
• Assets: $415 billion, including
      o Set-aside Cash (pension and retiree health funds): $330 billion
      o Real estate: $85 billion
• Pension and retiree health liabilities: $394 billion
• Overpayment to FERS: $3 billion, or $12 billion using USPS-specific assumptions.

Mail Volume
• Total mail pieces in 2012: 159.9 billion (25% below 213.1 billion peak in 2006)
• First-Class Mail pieces in 2012: 69.9 billion (33% below 103.7 peak in 2001)
• Mail pieces processed daily in 2012: 528 million
• Increase in parcel deliveries between 2011 and 2012: 7.5%
• Percent of world’s mail volume processed: 40%

Employees
• Career employees in 2012: 528,458 (34% below 797,795 peak in 1999)
• Workhours in 2012: 1,122 million (down 23% since 2006, down 31% since 2000)
• Compensation expenses in 2012: $47.7 billion
• Biweekly cost of salaries and benefits: $1.8 billion

Facilities and Transportation
• Buildings in real estate inventory: 8,606 owned, 23,998 leased.
• Postal Service-managed retail offices: 31,272
• Major mail processing plants (P&DC): 241
• Postal-owned vehicles: 212,530 — the largest civilian fleet in the world
• Transportation purchased from private sector: $6.6 billion

Miscellaneous Statistics
• Mailing industry annual revenue: $1.3 trillion
• Jobs supported by the mailing industry: 8.4 million, or 6% of all U.S. jobs
• $15 billion in worksharing (operations by the private sector for a discount)
• Percent of FedEx’s ground shipments the Postal Service delivered in 2011: 30%
• Delivery points in 2012: 152 million (an increase of 654,560 from 2011)
• Delivery routes in 2012: 226,999


Primer on Postal Challenges                                                          22
Appendix C: Key References
•   U.S. Postal Service Office of the Inspector General, Meeting America’s Emerging
    Communications Needs, Report No. RARC-WP-12-009, April 27, 2012,
    http://www.uspsoig.gov/foia_files/RARC-WP-12-009.pdf

•   U.S. Postal Service Office of the Inspector General, Fundamental Questions for the Future
    of the Postal Service, Report No. RARC-WP-11-001, February 2, 2011,
    http://www.uspsoig.gov/foia_files/rarc-wp-11-001.pdf

•   U.S. Government Accountability Office, U.S. Postal Service: Mail Processing Network
    Exceeds What Is Needed for Declining Mail Volume, Report No. GAO-12-470, April 2012,
    http://gao.gov/assets/600/590081.pdf

•   U.S. Postal Service Office of the Inspector General, Peer-to-Peer Commerce and the Role
    of the Postal Service, Report No. RARC-WP-13-005, January 14, 2013,
    http://www.uspsoig.gov/foia_files/RARC-WP-13-005.pdf x3

•   U.S. Postal Service Office of the Inspector General, The Postal Service Role in the Digital
    Age Part 1: Facts and Trends, Report No. RARC-WP-11-002, February 24, 2011,
    http://www.uspsoig.gov/foia_files/rarc-wp-11-002.pdf

•   U.S. Postal Service Office of the Inspector General, The Postal Service Role in the Digital
    Age Part 2: Expanding the Postal Platform, Report No. RARC-WP-11-003, April 19, 2011,
    http://www.uspsoig.gov/foia_files/RARC-WP-11-003.pdf

•   Postal Regulatory Commission, Report on Universal Postal Service and the Postal
    Monopoly, December 19, 2008, http://www.prc.gov/Docs/61/61628/USO%20Report.pdf

•   U.S. Postal Service, Progress and Performance: Annual Report to Congress, 2012,
    http://about.usps.com/publications/annual-report-comprehensive-statement-2012/annual-
    report-comprehensive-statement-2012.pdf

•   U.S. Postal Service, Assessment of the U.S. Postal Service Future Business Model,
    November 2009, http://about.usps.com/future-business-model/usps-
    futurebusinessmodelpaperforgao-final.pdf

•   U.S. Postal Service Office of the Inspector General, e-Government and the Postal Service:
    A Conduit to Help Government Meet Citizens’ Needs, Report No. RARC-WP-13-003,
    January 7, 2013, http://www.uspsoig.gov/foia_files/RARC-WP-13-003.pdf

•   U.S. Postal Service Office of the Inspector General, A Framework for Delivery Network
    Optimization, Report No. RARC-WP-12-015, September 10, 2012,
    http://www.uspsoig.gov/foia_files/RARC-WP-12-015.pdf

•   U.S. Postal Service Office of the Inspector General, A Strategy for a Future Mail Processing
    & Transportation Network, Report No. RARC-WP-11-006, July 6, 2011,
    http://www.uspsoig.gov/foia_files/rarc-wp-11-006.pdf



Primer on Postal Challenges                                                                       23
•   U.S. Postal Service, Postal Facts, 2012, http://about.usps.com/future-postal-
    service/postalfacts-2012.pdf

•   U.S. Postal Service, Plan to Profitability: Five Year Business Plan, February 16, 2012,
    http://about.usps.com/news/national-releases/2012/pr12_0217profitability.pdf

•   U.S. Postal Service, Postal Service Moves Ahead with Modified Network Consolidation Plan,
    May 17, 2012, http://about.usps.com/news/national-releases/2012/pr12_058.htm

•   U.S. Postal Service, Report on Form 10-K, 2012, http://about.usps.com/who-we-
    are/financials/10k-reports/fy2012.pdf

•   U.S. Postal Service, Report on Universal Postal Service and the Postal Monopoly, October
    2008, http://about.usps.com/universal-postal-service/usps-uso-report.pdf

•   U.S. Postal Service, Fact Sheet: Six-Day Package, Five-Day Mail Delivery, 2013,
    http://about.usps.com/news/national-releases/2013/fiveday-factsheet.pdf

•   U.S. Postal Service, The Household Diary Study: Mail Use & Attitudes in FY 2011, April
    2011, http://about.usps.com/studying-americans-mail-use/household-diary/2011/fullreport-
    pdf/usps-hds-fy11.pdf

•   U.S. Postal Service Office of the Inspector General, Delivery Unit Optimization Initiative,
    Report No.MS-AR-13-001, December 6, 2012, http://www.uspsoig.gov/foia_files/MS-AR-13-
    001.pdf

•   U.S. Postal Service Office of the Inspector General, Digital Currency: Opportunities for the
    Postal Service, Report No. RARC-WP-12-001, October 3, 2011,
    http://www.uspsoig.gov/foia_files/RARC-WP-12-001.pdf

•   Postal Regulatory Commission, Advisory Opinion on Elimination of Saturday Delivery,
    Docket No. N2010-1, March 24, 2011,
    http://www.prc.gov/Docs/72/72327/Advisory_Opinion_032411.pdf

•   Federal Trade Commission, Accounting for Laws that Apply Differently to the United States
    Postal Service and its Private Competitors, December 2007,
    http://www.ftc.gov/os/2008/01/080116postal.pdf

•   Universal Postal Union, Market Research on International Letters and Lightweight Parcels
    and Express Mail Service Items, 2010,
    http://www.jcampbell.com/ref_upu_doha/upu/20100325_UPU_Adrenale.pdf

•   Federal Communications Commission, Eighth Broadband Progress Report, Report No. FCC
    12-90, August 2012, http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-12-90A1.pdf




Primer on Postal Challenges                                                                    24
